                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                 Inspection of
                                        the American Institute in Taiwan/
                                                  Washington

                                           Report Number ISP-I-12-47, September 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                                                1
Context                                                                                      3
  Authority of the Secretary of State over the American Institute in Taiwan                  4
  Department of State’s Contractual Relationship with the American Institute in Taiwan       4
  U.S. Government Employees Assigned to the American Institute in Taiwan                     4
Executive Direction                                                                          6
  Board of Trustees                                                                          6
  Chairman of the Board of Trustees                                                          7
  Managing Director                                                                          8
Management                                                                                   9
  Contract Oversight                                                                         9
  Travel and Representation                                                                 10
  Human Resources                                                                           11
  Financial Management                                                                      11
  Ethics                                                                                    13
Conducting or Carrying Out Unofficial Relations                                             15
  Economic Relations                                                                        15
  Political-Military Relations                                                              15
  Liaison for the Taipei Economic and Cultural Representative Office in the United States   17
List of Recommendations                                                                     19
List of Informal Recommendations                                                            23
American Institute in Taiwan/Washington Personnel                                           24
Abbreviations                                                                               25




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Key Judgments
      •    The American Institute in Taiwan (AIT) is a nonprofit organization founded in
           accordance with the 1979 Taiwan Relations Act (TRA) and overseen by the Department
           of State (Department). With offices in the United States (AIT/Washington) and Taiwan
           (AIT/Taiwan) AIT is a unique hybrid. It is both a nonprofit organization and a
           Department instrumentality. This arrangement has produced tension and inconsistency in
           the operational relationship among the Department, AIT’s offices in Washington and
           Taiwan, and other U.S. Government agencies.

      •    AIT/Washington is required by contract to follow Department direction, and the 1979
           TRA gives the Department authority to preempt any conflicting state or District of
           Columbia law or regulation. Nevertheless, AIT/Washington has periodically invoked its
           corporate status under District of Columbia law as justification for not conforming to
           Department regulations.

      •    The Bureau of East Asian and Pacific Affairs (EAP) has the lead role under the contract
           for both policy and management oversight. EAP and other Department offices tasked
           with contractual oversight for AIT have not met their responsibilities under the contract,
           including those for financial management.

      •    In 2002, the Foreign Service Act was amended to allow the assignment of active-duty
           U.S. Government employees to AIT. That change had important implications that the
           Department has not sufficiently taken into account in its relationship with AIT. As a
           result, AIT/Washington contractors today unnecessarily perform functions that should be
           performed by U.S. Government employees.

      •    Significant vulnerabilities and risks exist within the AIT system in both policy execution
           and financial management.

      •    The Department has failed to ensure that its contract with AIT, which entered into force
           in April 2012, reflects its needs and priorities. The contract is not specific or detailed
           enough to enable appropriate Department oversight.

      •    The AIT board of trustees has not met its statutory responsibilities. The board is detached
           from both the policy environment and the management of AIT and requires reform and
           reinvigoration. EAP managers did not fully appreciate their authority over
           AIT/Washington and treated it as an independent entity.

This report should be read in conjunction with the report of OIG’s inspection of AIT/Taiwan,
conducted in the fall of 2011. 1 This report subsumes, revises, and reissues Recommendations 8
and 24 from that earlier inspection.



1
    Inspection of the American Institute in Taiwan, Report Number ISP-I-12-12A, February 2012.
                                                         1
                                SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

The inspection took place in Washington, DC, between April 7 and June 28, 2012. (b)   (6)




                                             2
                         SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Context
       In 1979, the United States ended diplomatic relations with Taiwan and established
diplomatic relations with the People’s Republic of China. The TRA 2 ensured that the people of
the United States would maintain cultural, commercial, and other unofficial relations with the
people on Taiwan. Three decades later, this unofficial relationship remains broad, deep, and
complex.

        The 1979 TRA provides the legal underpinning for relations between the United States
and Taiwan. In the absence of formal diplomatic ties, it puts in place an arrangement in which
AIT and its counterpart, the Taipei Economic and Cultural Representative Office in the United
States (TECRO), serve as the appropriate instrumentalities for bilateral cooperation. Although
neither side maintains an embassy on the other’s territory, their representatives are not
considered to be diplomats, and written agreements between them are not treaties, the United
States and Taiwan engage in a wide range of activities that would otherwise be part of a normal
bilateral relationship.

        The TRA provides that relations with Taiwan are to be “conducted and carried out by or
through” 3 AIT. AIT is a unique hybrid: a private nongovernmental corporation, staffed largely
by U.S. Government employees, that operates as a contractor of the Department. It is
contractually and institutionally bound to follow Department direction. Although nominally two
parts of a single organization, AIT/Washington and AIT/Taiwan operate largely as independent
entities and have significantly different functions. U.S.-Taiwan relations are carried out and
conducted by AIT/Taiwan and through AIT/Washington.

       AIT/Taiwan operates in most respects like an embassy. It carries out a wide range of
embassylike activities, including political and economic reporting, commercial advocacy and
promotion, consular services, security assistance, and public diplomacy. It is staffed by active-
duty U.S. Government personnel.

       AIT/Washington, on the other hand, has no direct analogue. Its eight-person staff consists
(with one exception) of contract employees, who perform three broad functions paralleling
various Department offices: 4

1. In the United States, AIT/Washington serves as the principal point of contact with TECRO.
   AIT/Washington acts as an intermediary between TECRO and the Bureau of Consular
   Affairs in facilitating visa-related matters for TECRO employees in the United States and
   U.S. Government employees assigned to AIT/Taiwan. AIT/Washington also performs
   services for TECRO that are analogous to those provided by the Department’s Office of
   Foreign Missions, such as the issuance of tax exemption cards, drivers’ licenses, and vehicle
   registrations.



2
  Pub. L. No. 96-8 (April 10, 1979).
3
  Section 6.
4
  Contract SAQMMA12D0101, dated 04/04/2012, Section C 4.1. This listing is paraphrased and not comprehensive.
                                                     3
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

2. AIT/Washington serves as the formal liaison between Taiwan and U.S. Government
   agencies. It provides a channel through which activities, training, and equipment transfers
   can be conducted. AIT/Washington personnel act as nominal chair of U.S. delegations in
   negotiations and sign final documents carrying out programs, transactions, and relations on
   behalf of the U.S. Government.

3. AIT/Washington provides direction to AIT on fiscal matters pertaining to the Institute’s
   overall operation, monitoring the Institute’s overall operation and finances, and preparing
   documentation for the annual appropriation process.

Authority of the Secretary of State over the American Institute in Taiwan

       The Secretary of State has authority over AIT. In practice, this authority has been
delegated to the EAP Assistant Secretary.

Department of State’s Contractual Relationship with the American Institute in Taiwan

        Updated in April 2012, the current contract between the U.S. Government and AIT
defines AIT’s role as to “carry out on an unofficial basis programs, transactions, and other
relations with or relating to the people on Taiwan.” 5 The contract directs that performance of
administrative, consular, and other functions follow Department regulations. All new and revised
position descriptions must be submitted for review and classification to the EAP executive
office. Travel and transportation costs must conform to Department regulations, the Federal
Travel Regulations, and the Foreign Affairs Manual (FAM). 6 As an Indefinite Delivery,
Indefinite Quantity contract, changes can be effected through simple task orders, rather than via
the complex modifications that were required under the old contract. The contract also serves as
a framework under which bureaus and offices within the Department and other agencies can
submit task orders to AIT.

U.S. Government Employees Assigned to the American Institute in Taiwan

        For many years, U.S. Government employees assigned to work in AIT/Taiwan or
AIT/Washington were formally separated from U.S. Government service for the duration of their
assignments. Under Section 11 of the TRA, these employees enjoyed reemployment or
reinstatement rights that ostensibly protected their retirement and other benefits as U.S.
Government employees. In practice, this process was convoluted and confusing and created
bureaucratic problems that continue to this day.

      In 2002, Congress amended Section 503 of the Foreign Service Act to allow U.S.
Government employees to be directly assigned or detailed to AIT without separating from
government service. 7 As U.S. Government agencies moved to comply, the status of their
employees at AIT changed. Many AIT employees, most of them in Taiwan, went from being
5
  Contract SAQMMA12D0101, dated 04/04/2012, Section C.1.1.a.
6
  Although the contract was renewed and restructured in April 2012, its substantive provisions remain virtually
unchanged from the 2006 version.
7
  Sec. 326, Pub. L. No. 107-228. Such assignments or details cannot exceed 6 years and are renewable once with the
Secretary’s concurrence.
                                                        4
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

contractors to direct employees of their home agencies, much like their counterparts at American
embassies in the rest of the world. Their supervisory chains, duties, and responsibilities also
changed.

       This amendment had a significant impact upon AIT’s bureaucratic status and operations
that went largely unrecognized, both within and outside the Department. The 1979 TRA contains
language authorizing AIT employees to undertake discretionary activities akin to inherently
governmental functions performed at embassies and in the Department’s bureaus. 8 However,
AIT employees have sometimes performed such functions with inadequate Department direction
or even in a manner inconsistent with direction from the Department or other agencies. When the
employment status of personnel assigned to AIT/Taiwan changed to include the direct
assignment of diplomatic and military personnel, the Department did not undertake a thorough
review of the role of contractors within AIT as a whole to determine the appropriate division of
labor between direct-hire U.S. Government employees and contractors.

Recommendation 1: The Bureau of East Asian and Pacific Affairs, in coordination with the
Office of the Legal Adviser, should conduct a formal review of the practice whereby American
Institute in Taiwan contract employees continue to perform inherently governmental functions,
and determine an appropriate allocation of all functions between direct-hire U.S. Government
employees and contractors within the entire American Institute in Taiwan organization. (Action:
EAP, in coordination with L)




8
 Office of Management and Budget Circular A-76 (revised), May 29, 2003, defines an inherently governmental
function as “…an activity that is so intimately related to the public interest as to mandate performance by
government personnel.” As examples, it cites: “…the exercise of sovereign government authority… and…
determining, protecting, or advancing economic, political, territorial, property, or other interests by military or
diplomatic action,...contract management, or otherwise.”
                                                           5
                                SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Executive Direction
        AIT/Washington has generally performed its duties conscientiously and professionally,
despite the absence of proper Department oversight. Department officers tasked with contractual
oversight for AIT have failed to meet their responsibilities under the contract, including those for
financial management. EAP has the lead role under the contract for both policy and management
oversight. The contract defines two EAP officers as, respectively, the contracting officer’s
representative for administration (COR-A) and the contracting officer’s representative for policy
(COR-P). Neither officer has paid adequate attention to those duties, nor has EAP leadership
required that they do so. Because of turnover and staffing gaps, COR-A responsibilities have
been handled by a succession of officers, leading to some unfamiliarity with the duties. The
COR-P told the inspection team he was unaware of his responsibilities. The Bureaus of
Administration, Budget and Planning, Comptroller and Global Financial Services, and Consular
Affairs, as well as the Office of the Legal Adviser, share responsibility under the contract as
well. The inspection team found that most of the responsible parties showed little or no
awareness of their assigned roles under the contract, resulting in significant vulnerabilities and
potential risk.

       AIT/Washington and the contracting officer in the Department’s Office of Acquisitions
Management managed the negotiation of the 2012 contract. Input was solicited from various
Department offices, but only minor points were raised. EAP provided no policy input to the
renewal process, although several EAP officials expressed their concerns to the inspection team
about AIT/Washington’s role and functions.

Board of Trustees

       AIT is overseen by four trustees who serve at the pleasure of the Secretary of State. 9 The
board of trustees does not include any Department representation. A retired U.S. ambassador
who is not normally resident in the Washington, DC, area chairs the board on a part-time basis.
Two retired U.S. Government employees who play no major role, aside from attending quarterly
board meetings, also serve as board members. AIT/Washington’s managing director is the fourth
board member and presides in the chairman’s absence. The COR-A and COR-P attend board
meetings as observers, and the director of AIT/Taiwan is also invited.

        The board of trustees exercises little oversight of AIT. The minutes of board meetings
suggest a high degree of informality and indicate no decisionmaking activities. Under AIT’s
bylaws, meetings are supposed to be formally convened and agendas and supporting material
circulated 2 days in advance. This practice makes meaningful review of the material before the
meeting very difficult, especially for those traveling from outside Washington, and is not in
accordance with DC corporation law. 10 The board also does not follow a formal decisionmaking
process regarding budget, investment actions, personnel, and approval of contract amendments.
Motions are never made and votes are not recorded. In addition, appointing the AIT/Washington
managing director as a trustee, and making her a de facto deputy chairman, has significantly


9
    AIT Bylaws, Section 2.02.
10
    D.C. Code § 29-401.01.
                                                 6
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

undermined the oversight role of the board by allowing an individual who is under board
supervision to become the trustee with the greatest knowledge of AIT/Washington operations.

         The current bylaws and composition of the board of trustees do not allow for the
provision of appropriate oversight of or direction to AIT. Lines of authority are unclear, board
decisions lack finality, and follow-on actions by AIT staff lack legitimacy. Reconstituting the
board and expanding its membership, including a deputy assistant secretary from EAP to provide
oversight and policy input, at least one member with management expertise, and the AIT/Taiwan
director and AIT/Washington managing director as nonvoting members, would help address
these problems. In addition, common practice dictates that materials for consideration and
decision (including the previous minutes, proposed motions to be considered, and any
documentation in support of the motions) be circulated well in advance of board meetings.

Recommendation 2: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should direct the American Institute in Taiwan to amend its bylaws to
expand the number of board trustees to five, including the appropriate Bureau of East Asian and
Pacific Affairs deputy assistant secretary as a voting member, and make the managing director of
the American Institute of Taiwan/Washington and the director of the American Institute of
Taiwan/Taiwan nonvoting ex officio members of the board. (Action: EAP, in coordination with
A)

Recommendation 3: The Bureau of East Asian and Pacific Affairs should make the deputy
assistant secretary’s active participation in the American Institute in Taiwan’s board of trustees
meetings a specific work requirement in his/her annual performance evaluation. (Action: EAP)

Recommendation 4: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should direct the American Institute in Taiwan to amend its bylaws to
require that an annual schedule of meetings of the board of trustees be established and that
agendas and supporting material for board meetings be provided to attendees at least 3 weeks
before the meeting date. (Action: EAP, in coordination with A)

Recommendation 5: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should direct the American Institute in Taiwan to record board of
Trustee decisions in the meeting minutes. (Action: EAP, in coordination with A)

Chairman of the Board of Trustees

        Until 2004, AIT bylaws designated the board chairman as both chairman and managing
director. Upon the departure of the 2004 incumbent, and at the direction of the Department, the
role of chairman was reduced to a part-time function. The deputy managing director of
AIT/Washington became managing director and a member of the board. The managing director
was also designated as the de facto deputy chairman, to act as chairman in his/her absence. The
AIT bylaws now state that the chairman is responsible for presiding over the meetings of the
board “if present.” The role of chairman is also mentioned in the Department’s contract with
AIT, which specifies that the chairman is responsible for additional duties, such as


                                                 7
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

accompanying important Taiwan visitors in the United States. The contract also states that “the
[c]hairman and other trustees may also advise policymakers on issues within their purview.” 11

         Over the more than three decades of AIT’s existence, activities undertaken by various
chairmen have occasionally resulted in confusion and uncertainty at AIT/Taiwan regarding the
relative responsibilities and policy roles of the AIT/Taiwan director and the chairman. There
have been cases in which a chairman ignored policy direction from the Department or sought to
direct resources inappropriately. (This is not true of the current chairman.) According to the AIT
bylaws, but absent from the contract, the chairman may also be asked to provide services to the
Department at AIT’s expense, including meetings with U.S. officials or with senior Taiwan
representatives; telephone consultations with the Department, National Security Council, and
AIT/Washington; and drafting and editing statements on behalf of the Department and the
National Security Council. EAP and National Security Council staff have drawn upon the current
chairman’s experience and expertise in these areas. However, as such additional duties are
distinct from AIT’s mission, they would be more appropriately handled as a direct consulting
contract between EAP and the chairman.

Recommendation 6: The Bureau of East Asian and Pacific Affairs should specify in a direct
consulting contract any services it wishes the American Institute in Taiwan chairman to perform
beyond those stipulated in the Institute’s contract. (Action: EAP)

Managing Director

       As noted previously, the managing director of AIT/Washington is currently a voting
member of the board of trustees and fills in for the chairman in his absence. She has no day-to-
day supervisory or management responsibilities for AIT/Taiwan. The managing director’s
functions are described in both the bylaws and the contract, using identical text; she is the only
AIT employee whose duties are specified in the contract. But the description is flawed. Some of
the elements are overly broad or intrude upon the authorities of other U.S. Government agencies.
Some elements are functions of AIT/Washington as a whole, not of the managing director alone.
No mention is made of supervisory responsibilities. Including a position description in a time
and materials contract such as AIT’s not only is inconsistent with the purpose of the contract but
also makes it difficult to modify the description as needed.

Recommendation 7: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, should exclude the managing director’s position description from the
American Institute in Taiwan contract. (Action: A, in coordination with EAP)




11
     Section C.4.
                                                8
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Management
        AIT receives all its operational funding by virtue of its contractual relationship with the
Department, which amounts to more than $60 million annually. Given the complexity of the
contract, greater attention needs to be paid to management of the contract and oversight of AIT.
The OIG team’s review of official files indicates that proper management oversight of AIT has
been lacking for many years. Although the contract specifies that all financial and operational
decisions taken by the board of trustees be subject to review by the contracting officer or his/her
representatives in EAP, inadequate board meeting minutes make this impossible, and EAP did
not follow up.

Contract Oversight

        The EAP Assistant Secretary is charged under the contract with providing policy
direction for AIT and ensuring that AIT’s activities on behalf of the U.S. Government are carried
out properly. His operating agents within EAP are the COR-A and COR-P. Despite the specific
duties attributed to them in the contract, AIT and EAP’s relationship has grown quite relaxed.
Oversight of the contract has been largely carried out via email. During the recent revision and
updating of the contract, EAP authorized AIT/Washington to work directly with the
Department’s contracting officer in the Office of Acquisitions Management to provide input
from interested parties inside the Department. A more appropriate assignment of contracting
duties would have been for EAP itself to work with the contracting officer so that AIT’s assigned
duties and responsibilities properly reflected the interests of the Department and the U.S.
Government as a whole.

        The contract lacks specificity regarding the functions to be carried out and how they
should be carried out. It does not specify deliverables or performance standards, which forces the
COR-A and COR-P to operate with little guidance. As a result, the evaluation of AIT’s
performance, in both Washington and Taiwan, is left to AIT’s board, which, as noted above, is
ill-prepared for that role.

        There are also lapses in contract oversight. The contract specifies that AIT can “collect
visa processing fees to the extent authorized by [EAP].” 12 These fees are designated for a
working capital fund, to be drawn on for capital improvements or other costs authorized by
Congress or EAP, and approved in advance and in writing by the contracting officer in the
Bureau of Administration. A thorough review of AIT’s budget submissions indicates that the
visa processing fees have been used for a variety of operational activities—rents, utilities,
communications, and maintenance—without written approval from the Department.

        The current contract also specifies that AIT follow guidance contained in the Federal
Acquisitions Regulations when carrying out contracting activities and sets a limit of $150,000 on
purchases allowed without the contracting officer’s approval. There is no record of the
contracting officer having formally approved any such waivers, although AIT has often exceeded
this limit. The absence of formal oversight by the Department has undermined the basis of the

12
     Section B. 10.2.
                                                 9
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

contractual relationship whereby AIT, as a Department contractor, uses appropriated funds to
carry out “duties as specified in the contract.” 13

Recommendation 8: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should review the functions and activities of the American Institute in
Taiwan and identify positions and functions no longer required. (Action: EAP, in coordination
with A)

Recommendation 9: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should amend the existing contract between the Department of State
and the American Institute in Taiwan to reflect the Bureau of East Asian and Pacific Affairs’
broad policy and managerial objectives. (Action: EAP, in coordination with A)

Recommendation 10: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should issue annual task orders to the American Institute in Taiwan to
delineate specific administrative goals and objectives, as well as benchmarks, performance
standards, staffing levels, and budgetary requirements. (Action: EAP, in coordination with A)

Travel and Representation

       AIT/Washington manages its own travel and representational activities without reference
to EAP’s policies or procedures. In addition, travel and representation performed on behalf of the
bureau is not approved in advance by the EAP executive office.

        The inspection team reviewed 3 years of travel vouchers and found that, although use of
premium-class airfare was approved and documented in AIT/Washington, the criteria applied
were not in accordance with EAP guidelines, of which AIT/Washington was unaware. Similarly,
travel by AIT/Washington personnel that was reimbursed by the Defense Security Cooperation
Agency (DSCA) prior to 2010 did not conform to Department of Defense (DOD) restrictions on
premium-class travel.

        The inspection team also reviewed 3 years of AIT/Washington representational
expenditures and found that EAP did not authorize representational events in advance in
accordance with the bureau’s policies. Aside from an annual Chinese New Year office party, the
majority of AIT/Washington’s representation expenditures were for informal welcome barbecues
for Taiwan military delegations, hosted by the AIT/Washington political-military director at his
home. Defense-related events would be more appropriately hosted by DOD officials, using their
funds. In 2010, DSCA informed AIT that it would no longer reimburse for such events. The
Department should not reimburse such expenses without an evaluation of their effectiveness and
appropriateness.

        Outside auditors, viewing AIT as a typical nonprofit, have noted that on several
occasions AIT used appropriated funds to purchase alcohol for representational events, in
violation of provisions of Office of Management and Budget Circular 122. However, the TRA
establishes that AIT is to act “in the manner and to the extent” directed by the President, who

13
     Sections B.8 and B.9.
                                               10
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

delegated that authority to the Secretary. 14 Although AIT is conducting representational
activities on the Department’s behalf and at the Department’s direction, the Institute’s use of
these funds to conduct representational activities does not adhere to the Department’s guidelines
and authorities, notwithstanding Office of Management and Budget Circular 122.

       AIT’s failure to adhere to EAP requirements pertaining to travel and representational
events has resulted in additional expense to the U.S. Government and called into question the
value of certain travel and representational activities.

Recommendation 11: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, should amend the American Institute in Taiwan contract to require
that the Institute follow Department of State regulations and Bureau of East Asian and Pacific
Affairs policies regarding travel and representation, notwithstanding Office of Management and
Budget Circular 122. (Action: A, in coordination with EAP)

Human Resources

        At the end of 2011, several AIT/Washington employees ran up against the 12-year
statutory limitation on U.S. Government employees detailed to AIT. They then retired and
continue to work at AIT/Washington as contract employees. Most have long tenures and even
longer experience with issues involving Taiwan. However, their position descriptions are not
current and are due for review, as required in the contract. In contrast, all positions in
AIT/Taiwan have been approved and classified according to Department regulations.

        Because contract employee duties and responsibilities are determined solely by the duties
the Department assigns to AIT, EAP has the responsibility to approve in advance any decision to
adjust staff levels at AIT/Washington or to hire a specific contract employee. When position
descriptions within AIT/Washington are not up to date with EAP requirements, confusion exists
among various offices within the Department, other agencies, AIT/Taiwan, and AIT/Washington
regarding the proper functions for AIT/Washington contractors.

Recommendation 12: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources and the Bureau of Administration, should review and classify
current position descriptions for the American Institute in Taiwan/Washington, as required by
the contract. (Action: EAP, in coordination with DGHR and A)

Financial Management

        Management of AIT finances differs significantly from standard Department operating
procedures, which hampers the Department’s ability to provide adequate financial controls. By
virtue of the contract, AIT receives operational funds from three sources, each of which
constitutes about one-third of the total: congressionally appropriated funds (FY 2011,
$20,934,671); visa processing (FY 2011, $21,500,000); and reimbursements from the U.S.
Government (FY 2011, $20,570,407). Funds are deposited into one of several commercial bank
accounts, and AIT/Washington or AIT/Taiwan then write checks on these accounts. Once these

14
     Section 6. (b).
                                               11
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

funds are deposited in AIT’s bank accounts, they are outside the Department’s budget system
and oversight and are, as a result, not visible on a timely basis to the Department’s financial
managers. In the absence of the routine internal controls that operate inside the Department,
financial management of these funds is left in large measure to the experience and goodwill of
the personnel responsible for management within AIT itself. According to the current
AIT/Taiwan financial management officer, it takes a year to master the AIT system.

         The working capital fund for capital improvements resides in a commercial bank
account consisting of Treasury bills amounting to some $140 million. However, the contract
contains no details about governance of the fund, its authorized uses, or who is authorized to
manage it. Consequently, the governance of this fund is weak. At the end of the fiscal year,
balances remaining in other AIT bank accounts are deposited in this fund. Lack of adequate
Department oversight and control of these funds places them at risk of improper use.

Recommendation 13: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Budget and Planning, the Bureau of the Comptroller and Global Financial Services,
and the Bureau of Administration, should form a financial oversight team consisting of
representatives from these bureaus to carry out quarterly visits to the American Institute in
Taiwan/Taiwan. (Action: EAP, in coordination with CGFS, BP, and A)

Recommendation 14: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, the Bureau of Budget and Planning, and the Bureau of Overseas
Buildings Operations, should amend the American Institute in Taiwan contract to specify the
specific purposes for building fund use and who has authority to release funds from this account.
(Action: A, in coordination with BP, EAP, and OBO)

        The Department’s contracting officer has authorized AIT only limited use of visa
processing fees for operational expenses, but the lack of transparency in the expenditure of
funds, noted previously, has made compliance difficult to track. As a result, millions of dollars
have accumulated at both AIT/Taiwan and AIT/Washington without notification of the
appropriate offices in the Department. In one case, AIT set aside $10 million to pay a bill for
biometric processing that the Bureau of Consular Affairs had already paid.

Recommendation 15: The Bureau of East Asian and Pacific Affairs should direct the American
Institute in Taiwan to discontinue segregating the funds set aside for biometric processing and
instead deposit these funds in the building improvement fund account. (Action: EAP)

         The Department’s poor financial oversight creates significant risk, especially when
officers assigned to manage the funds at AIT/Taiwan are transferred to other posts and take their
institutional memory with them. A similar accumulation of excess funds took place at
AIT/Taiwan in 2004. These funds were ultimately transferred to AIT/Washington for deposit in
the building fund, again without the Department’s knowledge. OIG’s 2011 inspection of
AIT/Taiwan identified problems with financial management and recommended changes; 15 this


15
 Inspection of the American Institute in Taiwan, Report Number ISP-I-12-12A, February 2012, Recommendation
24.
                                                    12
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

report revises and reissues Recommendation 24 of that report, which is now closed, and makes
additional recommendations to address deficiencies in this area.

Recommendation 16: The Bureau of the Comptroller and Global Financial Services, in
coordination with the Office of the Legal Adviser and the Bureau of East Asian and Pacific
Affairs, should provide the American Institute in Taiwan/Taiwan with Department of State
financial systems and training on their use. (Action: CGFS, in coordination with L and EAP)

Recommendation 17: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, should amend the contract with the American Institute in Taiwan to
require use of Department of State financial systems. (Action: A, in coordination with EAP)

Recommendation 18: The Bureau of East Asian and Pacific Affairs, in coordination with the
Office of the Legal Adviser and the Bureau of Administration, should place the responsibility for
financial management of the American Institute in Taiwan/Taiwan and the American Institute in
Taiwan/Washington under the direct oversight of the Bureau of East Asian and Pacific Affairs.
(Action: EAP, in coordination with L and A)

Recommendation 19: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, should amend the contract to give financial oversight responsibilities
for the American Institute in Taiwan/Taiwan and the American Institute in Taiwan/Washington
to the Bureau of East Asian and Pacific Affairs. (A, in coordination with EAP)

        In addition to handling visa processing fees, AIT/Washington serves as a conduit for
funds to and from AIT/Taiwan and U.S. Government agencies, the latter of which provide
equipment and/or training to a Taiwan entity via an AIT-TECRO agreement. The U.S.
Government agency then submits a bill to AIT/Washington, which forwards it to TECRO.
TECRO pays the bill and deposits the funds in AIT/Washington’s “pass-through” account that is
specific to TECRO. AIT/Washington writes a check to the U.S. Government agency concerned.
Several U. S. Government agencies and units of the Department also have agreements, in the
form of memoranda of understanding or contracts, to provide funding to AIT/Taiwan to support
their employees assigned to Taipei and/or Kaohsiung. These sustainment costs include what in
regular Department missions would be International Cooperative Administrative Support
Services charges, plus, in some cases, salary and benefits costs. These U.S. Government agencies
and offices were not informed of the April 2012 revision of the Department’s contract with AIT.

         Informal Recommendation 1: The Bureau of Administration should formally advise
         other U.S. Government agencies with subsidiary or independent contracts with the
         American Institute in Taiwan of the April 2012 contract update and encourage them to
         revise their agreements accordingly.

Ethics

       Personnel assigned to AIT/Washington routinely accept gifts from visiting dignitaries.
The contract between the Department and AIT specifies that employees are to conduct
themselves according to Department ethics requirements in 2 FAM 963 and 2 FAM 964.

                                                13
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Although there are no indications of wrongdoing, the absence of a gifts registry and lack of
annual ethics training present serious vulnerabilities.

Recommendation 20: The Bureau of East Asian and Pacific Affairs should direct the American
Institute in Taiwan/Washington to establish a gifts registry that adheres to Department of State
guidance and should require that personnel assigned to the American Institute of Taiwan/Taiwan
and those employed at the American Institute of Taiwan/Washington complete the Department
of State’s annual ethics training. (Action: EAP)




                                               14
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Conducting or Carrying Out Unofficial Relations
        The TRA, bylaws, and contract are largely silent on the respective roles of
AIT/Washington’s economic and political-military directors. Both officers have developed
excellent contacts with officials in TECRO and Taiwan, but their skills are misplaced in
AIT/Washington. Linking their substantive knowledge, interagency experience, and
understanding of U.S.-Taiwan relations more effectively to the Department would be of benefit
to them, AIT, and the U.S. Government. It is appropriate that EAP maintain substantive and
operational oversight of the directors’ activities and that AIT/Taiwan or other offices or agencies
of the U.S. Government take on some of the directors’ daily functions . Such an arrangement
would provide the Department with better access to, and oversight of, this valuable policy
resource.

Recommendation 21: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should direct the American Institute of Taiwan/Washington to place
its economic and political-military directors under the direct day-to-day oversight of the Taiwan
Coordination office. (Action: EAP, in coordination with A)

Economic Relations

         The AIT/Washington director for economic and trade issues is the focal point for
economic, commercial, science and technology, and energy issues, overseeing 43 agreements
involving 11 USG agencies. With more than 30 years’ experience on Taiwan and/or trade issues,
he has an encyclopedic knowledge of U.S.-Taiwan economic relations. Highly regarded by his
interagency colleagues, he has astutely struck a delicate balance of maintaining
AIT/Washington’s statutory role without impeding practical implementation by the interested
agencies. His role in coordinating the negotiation of new agreements in his area of responsibility
is particularly valuable.

Political-Military Relations

         The TRA states that the United States will make available to Taiwan such defense articles
and services “as may be necessary to enable Taiwan to maintain a sufficient self-defense
capability.” 16 The unofficial military-to-military relationship is deep and active, encompassing
billions of dollars annually in the sale of arms and services and dozens of military exchanges and
visits. AIT/Taiwan has nearly 20 staff members pursuing these goals in Taipei, but in
AIT/Washington only the political-military director and a program support specialist do so on a
part-time basis. The political-military director is hardworking, dedicated, and knowledgeable. He
is widely respected for his institutional memory, historical knowledge, and profound
understanding of U.S.-Taiwan security issues.

        The 2002 statutory change allowing active-duty personnel to serve in Taiwan makes it
advisable for AIT to adhere as closely as possible to the procedures governing security assistance
offices worldwide. At U.S. embassies, the sale of defense articles and services to foreign buyers

16
     Section 3.1.
                                                15
                          SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

is generally managed by security assistance offices, in accordance with standard U.S.
Government mechanisms and in cooperation with the DSCA. In the case of Taiwan,
AIT/Washington serves as both the conduit between TECRO and the U.S. Government and as
the signatory of formal documentation, such as Letters of Agreement. In recent years, this
arrangement has become unsatisfactory, resulting in imperfect information flows and
disagreements over authorities and associated expenditures. AIT/Washington maintains files
(often hard-copy originals) of key documents associated with each sale, but the files for specific
cases are not kept together, and AIT/Washington has had little occasion in recent memory to
retrieve such documents. AIT/Taiwan indicated that it frequently is unaware of deadlines and
other details required for its action because AIT/Washington has not provided the necessary
documentation. The 2011 inspection of AIT/Taiwan also identified problems in the handling of
political-military issues and recommended changes; 17 this report revises and reissues that 2011
report recommendation, which is now closed.

Recommendation 22: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Political-Military Affairs, should direct the American Institute in Taiwan to reorient its
political-military structures to parallel more closely the worldwide U.S. security assistance
system. (Action: EAP, in coordination with PM)

           Informal Recommendation 2: The Bureau of East Asian and Pacific Affairs should
           direct the American Institute in Taiwan to store and make available documentation
           electronically to the maximum extent possible.

         Requests for visits from foreign governments, international organizations, and foreign
contractors to U.S. military and defense contractor facilities are made electronically and
processed through DOD’s Security Policy Automated Network. TECRO uses this electronic
system, but its requests are routed to AIT/Washington for review of compliance with U.S.
Government substantive and Taiwan-related policies. This process gives the incorrect
impression—to both TECRO and the U.S. facilities—that AIT/Washington is approving the
visit. In the case of other foreign visitors, the military facility in question would make approval
decisions. It would be more appropriate for DOD officials to conduct compliance reviews if
required, based upon the same interagency-approved guidance currently applied by
AIT/Washington. If there is a wider policy concern, those officials could then seek interagency
review.

Recommendation 23: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, should amend the contract with the American Institute in Taiwan to
discontinue the Institute’s role in processing requests for visits to military and defense contractor
facilities by military officials from Taiwan and so inform the Department of Defense. (Action: A,
in coordination with EAP)

        AIT/Washington’s political-military director is intensively involved in the preparation
and execution of the visits of military officials from Taiwan. His efforts include preparing
detailed schedules, making appointments, greeting arriving visitors at the airport, accompanying
them on their calls, serving as notetaker, and hosting a welcome dinner at his home. These

17
     Inspection of the American Institute in Taiwan, Report Number ISP-I-12-12A, February 2012, Recommendation 8.
                                                        16
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

activities exceed the normal level of involvement of comparable Department officials in the
visits of foreign military officials and are generally considered to be the responsibility of a
visitor’s embassy and/or DOD officials.

Recommendation 24: The Bureau of East Asian and Pacific Affairs should direct the American
Institute in Taiwan/Washington to provide a level of support to military visitors from Taiwan
that is consistent with the practices of the bureau’s country desks. (Action: EAP)

Liaison for the Taipei Economic and Cultural Representative Office in the United States

Host-Country Relations

       The Bureau of Consular Affairs normally manages visa functions to facilitate the work of
foreign missions and international organizations in the United States. In Taiwan’s case,
AIT/Washington plays an intermediary role in processing requests for U.S. visa renewals and
extensions of stay for TECRO employees, thereby adding an extra step. AIT/Washington also
requests Taiwan visas from TECRO for U.S. Government employees assigned to AIT/Taiwan.
An AIT/Washington employee spends from 5 to 30 percent of her time handling visas. This time
could better be spent on other matters if the Bureau of Consular Affairs handled these issues.

Recommendation 25: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Consular Affairs, should instruct the American Institute in Taiwan/Washington to
revise its current practice with the Taipei Economic and Cultural Representative Office in the
United States and designate the Bureau of Consular Affairs with responsibility for handling
requests from the Taipei Economic and Cultural Representative Office in the United States for
U.S. visa renewals and extensions of stay. (Action: EAP, in coordination with CA)

Recommendation 26: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Consular Affairs, should instruct the American Institute in Taiwan/Washington to
revise its current practice with the Taipei Economic and Cultural Representative Office in the
United States and designate the Bureau of Consular Affairs as the office responsible for
submitting Taiwan visa applications for Department of State employees. (Action: EAP, in
coordination with CA)

Ceremonial Functions

        Because the United States does not recognize the Taiwan Government, high-level Taiwan
officials do not make official visits to the United States. Such officials do, however, transit the
United States en route to other countries. In those circumstances, the AIT chairman will usually
meet these visitors at the port of entry and escort them for the duration of their transit stay. This
practice is authorized by AIT contract language 18 that assigns the chairman “primary
responsibility for meeting, hosting, and accompanying important Taiwan visitors in the United
States.” The AIT/Washington’s managing director’s position description states that this role
may be delegated to her. In practice, the AIT/Washington directors for economic and political-
military affairs also perform this function, and there is no reason why the AIT/Taiwan director

18
     Section C.4.
                                                 17
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

should not do so as required. However, the absence of standard operating procedures that define
which Taiwan visitors qualify for what courtesies leads to ad hoc extension of such courtesies
and to AIT/Washington employees devoting more time and attention to these duties than do EAP
country desk officers.

Recommendation 27: The Bureau of East Asian and Pacific Affairs should implement standard
operating procedures regarding greeting and escorting of official visitors from Taiwan during
transit stays in the United States. (Action: EAP)




                                              18
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

List of Recommendations
Recommendation 1: The Bureau of East Asian and Pacific Affairs, in coordination with the
Office of the Legal Adviser, should conduct a formal review of the practice whereby American
Institute in Taiwan contract employees continue to perform inherently governmental functions,
and determine an appropriate allocation of all functions between direct-hire U.S. Government
employees and contractors within the entire American Institute in Taiwan organization. (Action:
EAP, in coordination with L)

Recommendation 2: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should direct the American Institute in Taiwan to amend its bylaws to
expand the number of board trustees to five, including the appropriate Bureau of East Asian and
Pacific Affairs deputy assistant secretary as a voting member, and make the managing director of
the American Institute of Taiwan/Washington and the director of the American Institute of
Taiwan/Taiwan nonvoting ex officio members of the board. (Action: EAP, in coordination with
A)

Recommendation 3: The Bureau of East Asian and Pacific Affairs should make the deputy
assistant secretary’s active participation in the American Institute in Taiwan’s board of trustees
meetings a specific work requirement in his/her annual performance evaluation. (Action: EAP)

Recommendation 4: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should direct the American Institute in Taiwan to amend its bylaws to
require that an annual schedule of meetings of the board of trustees be established and that
agendas and supporting material for board meetings be provided to attendees at least 3 weeks
before the meeting date. (Action: EAP, in coordination with A)

Recommendation 5: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should direct the American Institute in Taiwan to record board of
Trustee decisions in the meeting minutes. (Action: EAP, in coordination with A)

Recommendation 6: The Bureau of East Asian and Pacific Affairs should specify in a direct
consulting contract any services it wishes the American Institute in Taiwan chairman to perform
beyond those stipulated in the Institute’s contract. (Action: EAP)

Recommendation 7: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, should exclude the managing director’s position description from the
American Institute in Taiwan contract. (Action: A, in coordination with EAP)

Recommendation 8: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should review the functions and activities of the American Institute in
Taiwan and identify positions and functions no longer required. (Action: EAP, in coordination
with A)

Recommendation 9: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should amend the existing contract between the Department of State


                                                19
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

and the American Institute in Taiwan to reflect the Bureau of East Asian and Pacific Affairs’
broad policy and managerial objectives. (Action: EAP, in coordination with A)

Recommendation 10: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should issue annual task orders to the American Institute in Taiwan to
delineate specific administrative goals and objectives, as well as benchmarks, performance
standards, staffing levels, and budgetary requirements. (Action: EAP, in coordination with A)

Recommendation 11: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, should amend the American Institute in Taiwan contract to require
that the Institute follow Department of State regulations and Bureau of East Asian and Pacific
Affairs policies regarding travel and representation, notwithstanding Office of Management and
Budget Circular 122. (Action: A, in coordination with EAP)

Recommendation 12: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources and the Bureau of Administration, should review and classify
current position descriptions for the American Institute in Taiwan/Washington, as required by
the contract. (Action: EAP, in coordination with DGHR and A)

Recommendation 13: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Budget and Planning, the Bureau of the Comptroller and Global Financial Services,
and the Bureau of Administration, should form a financial oversight team consisting of
representatives from these bureaus to carry out quarterly visits to the American Institute in
Taiwan/Taiwan. (Action: EAP, in coordination with CGFS, BP, and A)

Recommendation 14: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, the Bureau of Budget and Planning, and the Bureau of Overseas
Buildings Operations, should amend the American Institute in Taiwan contract to specify the
specific purposes for building fund use and who has authority to release funds from this account.
(Action: A, in coordination with BP, EAP, and OBO)

Recommendation 15: The Bureau of East Asian and Pacific Affairs should direct the
American Institute in Taiwan to discontinue segregating the funds set aside for biometric
processing and instead deposit these funds in the building improvement fund account. (Action:
EAP)

Recommendation 16: The Bureau of the Comptroller and Global Financial Services, in
coordination with the Office of the Legal Adviser and the Bureau of East Asian and Pacific
Affairs, should provide the American Institute in Taiwan/Taiwan with Department of State
financial systems and training on their use. (Action: CGFS, in coordination with L and EAP)

Recommendation 17: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, should amend the contract with the American Institute in Taiwan to
require use of Department of State financial systems. (Action: A, in coordination with EAP)

Recommendation 18: The Bureau of East Asian and Pacific Affairs, in coordination with the
Office of the Legal Adviser and the Bureau of Administration, should place the responsibility for
financial management of the American Institute in Taiwan/Taiwan and the American Institute in
                                               20
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Taiwan/Washington under the direct oversight of the Bureau of East Asian and Pacific Affairs.
(Action: EAP, in coordination with L and A)

Recommendation 19: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, should amend the contract to give financial oversight responsibilities
for the American Institute in Taiwan/Taiwan and the American Institute in Taiwan/Washington
to the Bureau of East Asian and Pacific Affairs. (A, in coordination with EAP)

Recommendation 20: The Bureau of East Asian and Pacific Affairs should direct the
American Institute in Taiwan/Washington to establish a gifts registry that adheres to Department
of State guidance and should require that personnel assigned to the American Institute of
Taiwan/Taiwan and those employed at the American Institute of Taiwan/Washington complete
the Department of State’s annual ethics training. (Action: EAP)

Recommendation 21: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should direct the American Institute of Taiwan/Washington to place
its economic and political-military directors under the direct day-to-day oversight of the Taiwan
Coordination office. (Action: EAP, in coordination with A)

Recommendation 22: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Political-Military Affairs, should direct the American Institute in Taiwan to reorient its
political-military structures to parallel more closely the worldwide U.S. security assistance
system. (Action: EAP, in coordination with PM)

Recommendation 23: The Bureau of Administration, in coordination with the Bureau of East
Asian and Pacific Affairs, should amend the contract with the American Institute in Taiwan to
discontinue the Institute’s role in processing requests for visits to military and defense contractor
facilities by military officials from Taiwan and so inform the Department of Defense. (Action: A,
in coordination with EAP)

Recommendation 24: The Bureau of East Asian and Pacific Affairs should direct the
American Institute in Taiwan/Washington to provide a level of support to military visitors from
Taiwan that is consistent with the practices of the bureau’s country desks. (Action: EAP)

Recommendation 25: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Consular Affairs, should instruct the American Institute in Taiwan/Washington to
revise its current practice with the Taipei Economic and Cultural Representative Office in the
United States and designate the Bureau of Consular Affairs with responsibility for handling
requests from the Taipei Economic and Cultural Representative Office in the United States for
U.S. visa renewals and extensions of stay. (Action: EAP, in coordination with CA)

Recommendation 26: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Consular Affairs, should instruct the American Institute in Taiwan/Washington to
revise its current practice with the Taipei Economic and Cultural Representative Office in the
United States and designate the Bureau of Consular Affairs as the office responsible for
submitting Taiwan visa applications for Department of State employees. (Action: EAP, in
coordination with CA)

                                                 21
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 27: The Bureau of East Asian and Pacific Affairs should implement
standard operating procedures regarding greeting and escorting of official visitors from Taiwan
during transit stays in the United States. (Action: EAP)




                                               22
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Administration should formally advise other
U.S. Government agencies with subsidiary or independent contracts with the American Institute
in Taiwan of the April 2012 contract update and encourage them to revise their agreements
accordingly.

Informal Recommendation 2: The Bureau of East Asian and Pacific Affairs should direct the
American Institute in Taiwan to store and make available documentation electronically to the
maximum extent possible.




                                              23
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

American Institute in Taiwan/Washington Personnel
Title                                   Name                   Arrival Date

Chairman                                Raymond F. Burghardt   02/24/2006
Managing Director                       Barbara Schrage        09/13/1998
Director, Trade and Commercial Policy   Francis F. Ruzicka     03/29/1999
Director, Political Military Affairs    Greg K.S. Man          11/08/1999
Executive Officer                       Beth Bernhardt         Dept. employee
                                                               on loan from EAP
Lead Accountant                         Nancy Noble            07/19/1999
Accountant                              Hisae Diez de Medina   03/14/2010
Program Specialist                      Yermay English         02/11/2001
Administrative Program Specialist       Teresa Hoggard         06/28/2004




                                          24
                         SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED

Abbreviations
AIT                American Institute in Taiwan
AIT/Taiwan         Taiwan office of the American Insitute in Taiwan
AIT/Washington     Washington office of the American Institute in Taiwan
COR-A              Contracting officer's representative for administration
COR-P              Contracting officer's representative for policy
Department         U.S. Department of State
DOD                Department of Defense
DSCA               Defense Security Cooperation Agency
EAP                Bureau of East Asian and Pacific Affairs
FAM                Foreign Affairs Manual
OIG                Office of Inspector General
TECRO              Taipei Economic and Cultural Representative Office in the United6WDWHV
TRA                Taiwan Relations Act




                                    25
                 SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
